HHS/OIG, Audit -"Audit of Anthem Insurance Company's Unfunded Pension Costs for
1991 Through 2002,"(A-07-06-00205)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Anthem Insurance Company's Unfunded Pension Costs for 1991 Through 2002," (A-07-06-00205)
April 11, 2006
Complete
Text of Report is available in PDF format (435 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to:  (1) determine if the accumulated unfunded pension costs identified
in our prior reviews were accounted for properly; (2) determine if pension costs for the
audit period (19912002) were funded in accordance with the Federal Acquisition Regulations
(FAR) and the Cost Accounting Standards (CAS); and (3) identify and properly account
for any additional accumulated unfunded pension costs, including the identification of the
unallowable and reassignable portions of the accumulated unfunded pension costs.  We
found that Anthem properly accounted for previously identified unfunded pension costs in
accordance with Federal regulations.  For the current audit period, Anthem funded its
pension costs in accordance with the FAR and CAS.  However, as a result of the merger
with Blue Cross Blue Shield of Connecticut, Anthem has unallowable unfunded pension costs
for the Other segment.  The accumulated unallowable pension cost is $6,052,895 as of
January 1, 2003.
We recommended that Anthem: (1) identify $6,052,895 of accumulated unallowable pension costs
as of January 1, 2003, and (2) identify and properly track unallowable unfunded pension costs
in subsequent years.  Anthemagreed with our finding and recommendations and stated that
it had already implemented policies and procedures to ensure that unallowable unfunded pension
costs were properly tracked in the future.